                                                      IG-98-012

AUDIT
REPORT

                           EARTH OBSERVING SYSTEM DATA AND
                              INFORMATION SYSTEM (EOSDIS)
                                   FEDERATION PLAN


                                     MAY 9, 1998




                              OFFICE OF INSPECTOR GENERAL

National Aeronautics and
 Space Administration
ADDITIONAL COPIES

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at 202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E St., SW
               Washington, DC 20546


NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183; 1-800-535-8134 (TDD); or by writing the NASA Inspector General, P.O. Box
23089, L'Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential upon request to the extent permitted by law.



                                         ACRONYMS

CGCR           Committee on Global Change Research
DAAC           Distributed Active Archive Center
EDC            Earth Resources Observation System Data Center
EOS            Earth Observing System
EOSDIS         Earth Observing System Data and Information System
FY             Fiscal Year
NRC            National Research Council
USGCRP         United States Global Change Research Program
                                 TABLE OF CONTENTS


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . 3


OBSERVATION AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . 5


ATTACHMENT 1 - NASA MANAGEMENT RESPONSE . . . . . . . . . . . . . . 11


APPENDIX 1 - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                     iii
THIS PAGE INTENTIONALLY LEFT BLANK




                iv
BACKGROUND


             The Earth Observing System (EOS) Data and Information System
             (EOSDIS) will serve as the mechanism for generating, archiving, and
             distributing Earth Science Program data to a worldwide pool of
             planned users. A total of eight Distributed Active Archive Centers
             (DAACs), in various regions of the United States, will carry out this
             activity. NASA selected the DAACs during the 1991 to 1994 time
             frame based on their host institution’s existing expertise in various
             scientific areas relating to the study of changes in a global
             environment. NASA has invested significant funds to build, outfit,
             and rent space for the DAACs. Currently, NASA funds the DAACs
             at a level of approximately $25 million per year. Total planned
             funding for the DAACs from Fiscal Year’s (FY) 1997 through 2002
             is approximately $243 million.


             In July 1995, the National Research Council's (NRC) Committee on
             Global Change Research conducted a workshop to review the U.S.
             Global Change Research Program (USGCRP) and NASA’s Earth
             Science/EOS programs. They conducted the workshop in response
             to (1) the longstanding commitment of the NRC to providing scientific
             guidance and periodic review of the USGCRP and its component
             programs and plans, and (2) requests from congressional leaders of
             both houses for a timely review of the USGCRP with an early specific
             focus on the Earth Science/EOS programs in the light of budgetary
             pressures.


             The NRC concluded that the current EOSDIS performance


                               1
requirements were stressing the boundaries of affordability. Further,
new capabilities in computer telecommunication and recent experience
by the scientific community in the management of large and diverse
data sets could permit a significant change in the conceptual model
that governs the management and operation of the system.


The NRC formally recommended that NASA should: (1) retain but
streamline the components of EOSDIS under development for flight
control, data downlink, and initial processing, and (2) transfer to a
federation of partners selected through a competitive process, the
responsibility for product generation, publication, and user services.


In response to the NRC’s recommendations, NASA issued a program
plan on May 31, 1996, for a prototype EOSDIS federation. The
program plan calls for NASA to streamline operations and develop a
pilot program to compete the product generation, publication, and
user services functions of the DAACs. The pilot program will
identify, demonstrate, and validate technical approaches that could be
used to transition major EOSDIS functions to a federation of
competitively-selected partners. The total estimated budget for the
pilot federation program is approximately $93.6 million from FY 1997
through FY 2002.




                   2
OBJECTIVES, SCOPE, AND METHODOLOGY


OBJECTIVES    The overall audit objective is to determine if the NASA planned pilot
              program for the EOSDIS federation will benefit the Earth
              Science/EOS programs. Specific objectives are to determine:


              (1)    If NASA HQ has adequate justification for conducting a pilot
                     program.


              (2)    If the EOS budget can support the cost of the pilot program.


              (3)    What effect the federation pilot program will have on DAAC
                     operations.


SCOPE AND     This is one of three audits performed to assess various scientific

METHODOLOGY   aspects of the Earth Science/EOS programs. We performed this audit
              because the federation concept represents a significant change in the
              Earth Science/EOS programs. Besides being a potentially significant
              change, the federation pilot program will be implemented at a
              significant cost to NASA during a time when the overall Earth
              Science/EOS program’s budget has been reduced by more than 50
              percent, and a significant amount of NASA funds have already been
              expended on the existing DAACs.


              The scope of the audit included reviewing the NRC report “Review
              of the U.S. Global Change Research Program and NASA's Mission to
              Planet Earth/Earth Observing System” dated September 1995, and a
              subsequent NRC report dated July 3, 1996, on the “Results of March


                                3
                   1996 Committee on Global Change Research Meeting.” In addition,
                   we reviewed budget and procurement documents concerning the pilot
                   program.     We also interviewed personnel from (1) NASA
                   Headquarters and the Goddard Space Flight Center (GSFC), and (2)
                   DAACs at GSFC, the Langley Research Center (LaRC), and the U.S.
                   Department of Interior’s Earth Resources Observation System Data
                   Center (EDC).


AUDIT FIELD WORK   We conducted audit field work from February through December
                   1997 at NASA Headquarters, the GSFC, the University of Wisconsin,
                   and at the EDC, GSFC, and LaRC DAACs. We performed the audit
                   in accordance with generally accepted government auditing standards.




                                     4
THIS PAGE INTENTIONALLY LEFT BLANK




           5
OBSERVATION AND RECOMMENDATIONS


OVERALL EVALUATION    NASA conducted the pilot program in response to recommendations
                      made by the NRC’s Committee on Global Change Research. Further,
                      the EOS budget can support the projected cost of the pilot program.
                      The pilot program has not affected current operations since NASA is
                      running it concurrently with the DAACs, and they have transferred
                      none of the DAACs responsibilities. The audit did identify that NASA
                      has not demonstrated that a federated EOSDIS will enhance the Earth
                      Science/EOS programs, or that the benefits outweigh the costs.
                      Management needs to ensure that all costs and benefits are
                      considered, and that they establish a plan for evaluating the pilot
                      program’s success or failure, before proceeding with a federated
                      EOSDIS.


A COST/BENEFIT        NASA’s decision to implement a federated EOSDIS was made

ANALYSIS WAS NOT      without performing a cost/benefit analysis. In addition, there are no
                      definitive criteria or time frames to evaluate the pilot program’s
DONE TO SUPPORT THE
                      success or failure.     This condition occurred because NASA
DECISION TO
                      implemented the NRC’s recommendations concerning a federated
IMPLEMENT A
                      EOSDIS without the benefit of a study or analysis of the decision’s
FEDERATED EOSDIS      impact. As a result, NASA may spend approximately $93.6 million
                      (through FY 2002) for a pilot program to demonstrate a federated
                      EOSDIS that may not be in the best interest of NASA, or the
                      customers of the Earth Science/EOS programs.




                                        6
NRC RECOMMENDS        The NRC recommended in July 1995 that NASA transfer the EOSDIS

THAT NASA MOVE TO A   responsibility for data product generation, publication, and user
                      services to a federation of partners selected through a competitive
FEDERATED EOSDIS
                      process. In September 1995, NASA assembled a task team to address
                      the NRC’s recommendations. The team’s initial plan called for
                      recompetition of the DAAC functions concerning the 221 EOS
                      Standard Data Products. In March 1996, the NRC recommended that
                      NASA maintain a strong commitment to the idea of a federated
                      EOSDIS, but utilize a more deliberate approach by using a limited set
                      of pilot or prototype federated projects.


NASA PROGRAM PLAN     On May 31, 1996, the former NASA Associate Administrator for

IMPLEMENTS NRC        Mission to Planet Earth (now the Office of Earth Science), in
                      addressing the NRC's March 1996 recommendation, approved a
RECOMMENDATIONS
                      document    entitled     “Program   Plan    in   Response     to    NRC
                      Recommendations with Respect to the EOSDIS.” Concerning the
                      decision to implement a federated EOSDIS, the plan contains the
                      following statement:


                             “NASA will shift its implementation of EOSDIS production,
                             publishing, and user services to a federation of competitively
                             selected Earth Science Information Partners (ESIP’s). This
                             shift will be done in a manner intended to provide high
                             probability of success while controlling the costs of EOSDIS.
                             There will be continuous efforts to bring these costs down
                             while meeting the needs of the Earth Science program.
                             Implementation of this shift will be divided into two
                             sequential       phases---working    prototype   and        mature
                             operations; the working prototype phase is to begin with the


                                          7
                      acceptance of this plan.”


               The program plan allows for the existing DAACs to compete for
               services under the pilot program. In addition, the plan states that the
               pilot program will run in parallel with current DAAC operations to
               determine if a federated EOSDIS is viable. However, the plan
               contains no definitive criteria or time frames for evaluating the pilot
               program’s success or failure. NASA officials informed us that a
               project plan for the federation experiment will be completed in April
               1998. The plan will define criteria necessary to provide a sound basis
               for decisions on how NASA will structure a federation.


NASA DID NOT   As stated in NASA’s program plan, the initial decision in September

PERFORM        1995 to proceed with a federated EOSDIS and the subsequent
               decision to prototype federation projects are based on the assumption
COST/BENEFIT
               that these actions will control or bring down the cost of EOSDIS,
ANALYSIS
               while meeting the needs of the Earth Science program. Although the
               decisions to proceed with a federated EOSDIS and prototype are
               based on reduced costs, NASA did not perform a cost/benefit analysis
               supporting these decisions. NASA task team members did attempt to
               perform a cost/benefit analysis. However, they were not successful
               because they did not know what form the federation would take or the
               benefits that NASA would derive.


               NASA program personnel interviewed informed us that although they
               did not believe that there were cost benefits, the NRC’s
               recommendations concerning a federated EOSDIS were to be
               followed. This direction is further evidenced in correspondence dated
               September 19, 1995, from the head of NASA’s task team on


                                  8
                     implementing the NRC’s recommendations. In this correspondence,
                     the head of the task team states:


                            “The questions are how and when, not whether. NASA must
                            shift to a federated approach to EOSDIS.”


                     Responses to the task teams request for comments on the NRC report
                     and NASA’s program plan also questioned the costs and benefits of
                     a federated EOSDIS. One respondent stated that:


                            “NASA seems to have embraced the NRC review’s
                            recommendations at face value. I see no attempt to assess the
                            risks or costs of the new approach by performing at least
                            some in-depth analyses or developing a pilot study. NASA’s
                            response seems to be driven more by an eagerness to please
                            any critic during difficult budgetary times than by a desire to
                            do things in the best possible way.”


A COST/BENEFIT       NASA has recently issued a policy for performing cost/benefit

ANALYSIS SHOULD      analyses as part of the process for making major decisions.
                     Specifically, in a memorandum dated March 13, 1997, to all NASA
SUPPORT KEY AGENCY
                     Headquarters Offices and Field Installations, the Acting Deputy
DECISIONS
                     Administrator stated that decisions must be based on the best
                     information available. The memorandum specifically stated that:


                            “A key element in our decision making must be independent,
                            up-front cost/benefit analyses.        These analyses should
                            represent a thorough review of the requirement, identifying
                            the costs and benefits of major decisions. These analyses are


                                       9
                            particularly important where there is a potential impact on
                            safety, where there are high anticipated costs or benefits, and
                            where NASA has indications that the decision has a high level
                            of external interest.”


                     This policy was not in effect at the time of the NRC’s
                     recommendations or when NASA finalized the program plan.


FEDERATION MAY NOT   Because NASA did not perform a cost/benefits analysis before

BE IN NASA’S BEST    deciding to implement the NRC recommendations, NASA may have
                     taken actions regarding the federation that are neither cost effective
INTEREST
                     nor in the best interest of NASA. Funding budgeted for the pilot
                     federation program from FY 1997 through FY 2002 is $93.6 million.
                     With such a significant amount of funds involved, NASA should
                     ensure that any final decision made is adequately supported and in the
                     agency’s best interest. NASA can do this by performing a cost/benefit
                     analysis before they make a final decision concerning a federated
                     EOSDIS.


SUMMARY              NASA implemented the NRC’s recommendations concerning a
                     federated EOSDIS without performing a cost/benefit analysis. In
                     addition, the NASA program plan contains neither criteria nor
                     definitive time frames to measure the success or failure of the pilot
                     federation program. Such analysis, criteria, and time frames are
                     necessary to provide a sound basis to decide whether to fully
                     implement the federation upon completion of the pilot program.




RECOMMENDATION 1     The Office of Earth Science should immediately establish a plan to


                                       10
                          evaluate the pilot federation program’s success or failure before
                          proceeding with a federated EOSDIS. The plan should define specific
                          criteria and definitive time frames for the evaluations.


RECOMMENDATION 2          The Office of Earth Science should perform a cost/benefit analysis
                          before making any final decision to proceed with a federated EOSDIS.
                          Any decision made should be fully supportable and in the best interests
                          of the government.


Management Response to    Concur.    The Earth Science Enterprise has always intended to
Recommendations 1 and 2   produce a plan to evaluate the federation experiment pilot program’s
                          success or failure before proceeding with a federated EOSDIS. This
                          plan will be completed in spring 1998 in order to include input from
                          a National Research Council (NRC) Federation Workshop and from
                          the pilot projects themselves. We will also perform a cost/benefit
                          analysis at the appropriate time. That analysis will occur after the
                          pilot phase of the federation experiment has generated data that allows
                          us to assess the costs and benefits of this alternate way of providing
                          Earth Science data and information system and services.


Evaluation of             The actions planned by Management are considered responsive to the
Management’s Response     intent of the recommendations. Management’s plan to evaluate the
                          pilot program’s success or failure and perform a cost/benefit analysis
                          will ensure that any decision to proceed with a federated EOSDIS is
                          in the best interest of the government.


                          We would like to provide the following comments with respect to
                          Management’s comments that several inaccuracies still exist in the
                          report. Specifically, the response states that “the OIG retained other


                                            11
language that implies that the Office of Earth Science has decided to
implement a federated EOSDIS, thus creating contradiction within the
narrative and causing a disconnect with the recommendations.” In our
opinion, there is no contradiction in the report concerning the
agency’s intention to implement a federated EOSDIS. The current
pilot program resulted only after the NRC recommended in March
1996 that NASA maintain a strong commitment to the idea of a
federated EOSDIS, but utilize a more deliberate approach. However,
our audit showed that both prior and subsequent to the March 1996
NRC recommendation, there was clear indication that NASA intended
to implement a federated EOSDIS. This is clearly evidenced by not
only interviews with program personnel, but also various
correspondence and program plans.


The response also states that the anonymous quote of one individual’s
opinion is not evidential in nature and should be stricken from the
report. We took this quote directly from a response to the NASA
task team’s request for comments to the NRC recommendations and
the program plan. The respondent’s opinion directly supports our
position that NASA could implement a federated EOSDIS without the
benefit of performing a cost/benefit analysis.


Finally, the report states that the OIG cost figures in the report need
to be corrected.    Specifically, that the budgeted costs for the
federation experiment alone are approximately $4.1 million for FYs
1997 through 2002. Further, NASA is conducting and evaluating the
federation experiment using pilot projects at an additional cost of
$55.4 million. NASA’s position is that these pilot projects provide
desired innovative science and applications data products regardless


                   12
of the outcome of the federation experiment. It is our position that
the report accurately depicts the budgeted cost of $93.6 million for the
pilot federation program from FY 1997 through 2002. NASA
personnel provided this amount during the audit and it is documented
in the February 3, 1997, “EOSDIS Federation Summary.” This
summary indicates that the total cost of federation implementation was
$93.6 million composed of $86.8 million for Earth Science
Implementation activities and $6.8 million for NRC workshops and
meetings.




                  13
THIS PAGE INTENTIONALLY LEFT BLANK




           14
                                                                       APPENDIX 1




REPORT DISTRIBUTION

National Aeronautics and Space Administration (NASA) Headquarters
Code A/Office of the Administrator
Code AD/Deputy Administrator
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Management Assessment Division (10 copies)
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code S/Associate Administrator for Space Science


NASA Field Installations
Director, Ames Research Center
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Langley Research Center
Director, George C. Marshall Space Flight Center


NASA Offices of Inspector General
Ames Research Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center


                                               13
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center


Non-NASA Federal Organizations and Individuals
Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Professional Assistant, Subcommittee on Science, Technology and Space (c/o Tom Cooley)
Special Counsel, Subcommittee on National Security, International Affairs, and Criminal Justice




Chairman and Ranking Minority Member - Congressional Committees and Subcommittees
Senate Committee on Appropriations
Senate Subcommittee on VA-HUD-Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA-HUD-Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics




                                                14
MAJOR CONTRIBUTORS TO THIS AUDIT

Daniel J. Samoviski   Program Director, Earth/Space Science Programs


Kevin J. Carson       Director, Audit Quality


Kenneth C. Wood       Auditor-in-Charge, Goddard Space Flight Center


Diane Choma           Auditor, Goddard Space Flight Center


Sandra Laccheo        Auditor, Langley Research Center


Iris Purcarey         Program Assistant, Goddard Space Flight Center
